(Vpp6N(\vk, fy
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
BRADLEY WILLIAM MONICAL,
Plaintiff-Appellant,

FILED
FEB 7 2020
MOLLY C. DWYER, CLERK
U.S. COURT OF APPEALS

No. 18-36057
D.C. No. 3:17-cv-00501-YY

v.
MEMORANDUM*
CHRISTINA TOWERS; et al.,
Defendants-Appellees,
and
JANE DOE; JOHN DOE,
Defendants.
Appeal from the United States District Court
for the District of Oregon
Youlee Yim You, Magistrate Judge, Presiding**
Submitted February 4, 2020***
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

This disposition is not appropriate for publication and is not precedent
except as provided by Ninth Circuit Rule 36-3.
**

The parties consented to proceed before a magistrate judge. See 28
U.S.C. § 636(c).
' ***
The panel unanimously concludes this case is suitable for decision
without oral argument. See Fed. R. App. P. 34(a)(2).

Oregon state prisoner Bradley William Monical appeals pro se the district
court’s summary judgment in his 42 U.S.C. § 1983 action alleging due process and
equal protection claims. We have jurisdiction under 28 U.S.C. § 1291. We review
de novo. S.R. Nehadv. Browder, 929 F.3d 1125, 1132 (9th Cir. 2019). We affirm.
The district court properly granted summary judgment on Monical’s due
process claim related to his 16-day stay in administrative segregation and
temporary segregation because Monical failed to raise a genuine dispute of
material fact as to whether his stay “implicated a protected liberty interest.”
Serrano v. Francis, 345 F.3d 1071, 1077-78 (9th Cir. 2003) (explaining that “a
prisoner is entitled to certain due process protections ... only when the
disciplinary action implicates a protected liberty interest” or imposes an “atypical
and significant hardship ... in relation to the ordinary incidents of prison life”
(citation and internal quotation marks omitted)); id. at 1078 (“Typically,
administrative segregation in and of itself does not implicate a protected liberty
interest”).
The district court properly granted summary judgment on Monical’s due
process claim related to the alleged errors in the misconduct report because
Monical failed to raise a triable dispute as to whether the information in the report
was incorrect. See Fed. R. Civ. P. 56(a) (the court shall grant summary judgment
where “there is no genuine dispute as to any material fact”).
2

18-36057

The district'court properly granted summary judgment on Monical’s due
process claim relating to the alleged misapplication of the Oregon Administrative
Rules which resulted in defendants’ failure to credit properly MonicaPs time spent
in segregation at Jackson County Jail because defendants were entitled to qualified
immunity. See Morales v. Fry, 873 F.3d 817, 822 (9th Cir. 2017) (outlining twoprong test for qualified immunity and explaining that district courts may “address
the two prongs in whichever order would expedite resolution of the case”). It
would not have been clear to every reasonable prison official that such conduct
was unlawful under the circumstances. See Hamby v. Hammond, 821 F.3d 1085,
1090 (9th Cir. 2016) (for a right “[t]o be clearly established” for purposes of
qualified immunity, “a right must be sufficiently clear that every reasonable
official would have understood that what he is doing violates that right” (citation
and internal quotation marks omitted)).
The district court properly granted summary judgment on Monical’s equal
protection claim because Monical failed to raise a triable dispute as to whether
f

defendants “intentionally treated [him] differently from others similarly situated”
or whether “there [was] no rational basis for the difference in treatment.”
Thornton v. City ofSt. Helens, 425 F.3d 1158, 1167 (9th Cir. 2005) (citation
omitted).
The district court did not abuse its discretion in denying Monical’s motion to
3

18-36057

appoint counsel because Monical did not demonstrate exceptional circumstances.
See Agyeman v. Corr. Corp. ofAm., 390 F.3d 1101,1103 (9th Cir. 2004) (setting
forth standard of review and requirements for appointment of counsel).
The district court did not abuse its discretion in denying Monical’s motion to
compel discovery because Monical failed to demonstrate “actual and substantial
prejudice” as a result of the denied discovery. Hallett v. Morgan, 296 F.3d 732,
751 (9th Cir. 2002) (setting forth standard of review and explaining that a district
court’s “decision to deny discovery will not be disturbed except upon the clearest
showing that denial of discovery results in actual and substantial prejudice to the
complaining litigant” (citation and internal quotation marks omitted)).
We reject as meritless Monical’s contentions that the district court failed to
consider his verified civil complaint as summary judgment evidence and should
have sua sponte granted him summary judgment.
AFFIRMED.

4

18-36057

FILED

UNITED STATES COURT OF APPEALS

MAY 11 2020

FOR THE NINTH CIRCUIT

MOLLY C. DWYER, CLERK
k U.S. COURT OF APPEALS/

BRADLEY WILLIAM MONICAL,
Plaintiff-Appellant,
v.

CHRISTINA TOWERS; et al.,

No. 18-36057
D.C. No. 3:17-cv-00501-YY
District of Oregon,
Portland
ORDER

Defendants-Appellees,
and
JANE DOE; JOHN DOE,
Defendants.
Before:

FERNANDEZ, SILVERMAN, and TALLMAN, Circuit Judges.

The full court has been advised of the petition for rehearing en banc and no
judge has requested a vote on whether to rehear the matter en banc. See Fed. R.
App. P. 35.
/

Monical’s petition for rehearing en banc (Docket Entry Nos. 33 and 34) is
denied.
No further filings will be entertained in this closed case.

/

1f

Case 3:17-cv-00501-YY Document 88 Filed 12/04/18

A

Page 1 of 14

£

UNITED STATES DISTRICT COURT
DISTRICT OF OREGON
PORTLAND DIVISION

BRADLEY WILLIAM MONICAL,
Plaintiff,
\

Case No. 3:17-CV-00501-YY
v.
OPINION AND ORDER
CHRISTINA TOWERS; DEREK D.
MCCORKHILL; MICHAEL F. GOWER;
JERRY TAYLOR; SAM NAGY
Defendants.
YOU, Magistrate Judge:
Plaintiff Bradley Monical (“Monical”), proceeding pro se and in forma pauperis, has
filed a civil rights action under 42 U.S.C. § 1983. Monical is incarcerated at the Oregon State
Penitentiary. He alleges that defendants, who are various employees of Oregon Department of
Corrections (“ODOC”), violated his Fourteenth Amendment rights to Due Process and Equal
Protection by imposing disciplinary sanctions following his escape from Jackson County Jail.
He seeks a declaration that defendants’ actions violated his constitutional rights, correction of the
misconduct report that was written upon his return to ODOC custody, credit for time spent in
segregation, and $100,000 in damages. Am. Compl. 27.

1 - OPINION AND ORDER

Case 3:17-cv-00501-YY

Document 88

Filed 12/04/18

Page 2 of 14

This court has jurisdiction pursuant to 28 U.S.C. §§ 1331 and 1343(a)(3). All parties
have consented to allow a Magistrate Judge to enter final orders and judgment in this case in
accordance with FRCP 73 and 28 U.S.C. § 636(c). Defendants have moved for summary
judgment. ECF #67. For the reasons discussed below, defendants’ motion for summary
judgment is GRANTED.

BACKGROUND
Monical was admitted to the custody of ODOC on July 11, 2011. Decl. of Sam Nagy
(“Nagy Decl.”) ^ 4. Approximately one month later, he was transported to Jackson County Jail
for court appearances, and on November 11, 2012, he escaped by leaping from the jail’s rooftop
exercise yard onto a nearby tree. Am. Compl. 5; Nagy Deck, Att. 3, at 4. U.S. Marshals, Oregon
State Police, and members of the Jackson County Sheriffs Office unsuccessfully attempted to
apprehend Monical, and he remained at large for nearly one year. Nagy Decl., Att. 3, at 4. The
Multnomah County Sheriffs Office Warrant Strike Team arrested Monical on November 13,
2013, and he was returned to Jackson County Jail. Id.
Monical returned to ODOC custody on September 28, 2015, and was held in
administrative segregation1 for 11 days pending the results of the investigation into his escape.
Nagy Decl. If 4. On October 9, 2015, defendant Inspector Christina Towers (“Towers”) issued a
misconduct report, outlining the details of the escape and assigning a rule violation of 4.20
Escape I. Id., Att. 3, at 4. Correctional Captain Jeff Dickinson (“Dickinson”) reviewed the

l

OAR 291-046-0010(3) defines “administrative segregation” as “administrative housing for
those inmates whose notoriety, actions, or threats jeopardize the safety, security, and orderly
operation of the facility, staff, visitors, or other inmates.” An inmate may be voluntarily or
involuntarily assigned to administrative housing without a hearing for no more than 30 days.
OAR 291-46-014.
2 - OPINION AND ORDER

Case 3:17-cv-00501-YY

Document 88

Filed 12/04/18

Page 3 of 14

report, and approved holding Monical in temporary segregation status2 pending a disciplinary
hearing. Id. Monical was placed in temporary segregation status for five days, until his hearing
on October 14, 2015. Id., Att. 3, at 1.
At his disciplinary hearing, Monical admitted to escaping from the Jackson County Jail
through the rooftop exercise yard. Id., Att. 3, at 15-16. Defendant Hearings Officer Sam Nagy .
(‘“Nagy”) issued a preliminary order3 finding that Monical violated Rule 4.20 Escape I when he
left the secure perimeter of Jackson County Jail without authorization. Id., Att. 3, at 1. Nagy
imposed a sanction of 90 days’ disciplinary segregation with credit for time served, 14 days’ loss
of privileges upon release from the disciplinary segregation unit, and a $100 disciplinary fine.
Id., Att. 3, at 1-2, 7. On October 22, 2015, Monical was transferred to the disciplinary
segregation unit at Eastern Oregon Correctional Institution. Nagy Deck K 4. The functional unit
manager approved Nagy’s preliminary order on October 28, 2015, and it became a final order.
Id., Att. 3, at 24; id., Att. 4, at 19.

2 “Temporary segregation status” is defined as “[placement in a disciplinary segregation unit or
local jail pending disciplinary hearing.” OAR 291-105-0010(43). When an inmate is placed in
temporary segregation status, a hearing “shall be initiated within ten calendar days (including
Saturdays, Sundays, and legal holidays).” OAR 291-105-0021(5)(a).
3 See OAR 291-105-0028(12), (15) (authorizing hearings officer to decide whether an inmate has
committed a violation and impose a sanction); OAR 291-105-0031(1) (requiring hearings officer
to prepare a preliminary order within 10 days of the hearing); OAR 291-105-0031(3) (requiring
functional unit manager, within five days of receiving the preliminary order, to approve it or
issue an amended order dismissing the misconduct report or changing the sanction, upon which
the preliminary order becomes a final order).
4 This document contains a scrivener’s error reflecting the wrong date of October 6, 2015. The
correct date is reflected in other records as October 28, 2015. See Nagy Deck, ^ 7, n. 5.

3 - OPINION AND ORDER

Case 3:17-cv-00501-YY Document 88 Filed 12/04/18 Page 4 of 14

Monical petitioned for administrative review of the final order on November 7, 2015.5
Id., Att. 4, at 6-17. On November 30, 2015, defendant Inspector General Michael Gower
(“Gower”) affirmed the final order, finding there was substantial compliance with ODOC rules
governing prohibited inmate conduct (OAR 291-105), the violation was supported by a
preponderance of the evidence, and the sanctions were in accordance with the rules. Id., Att. 4,
at 1.
STANDARDS

I.

Summary Judgment
A party is entitled to summary judgment if the “movant shows that there is no genuine

dispute as to any material fact and the movant is entitled to judgment as a matter of law.” FRCP
56(a). Summary judgment is not proper if material factual issues exist for trial. Warren v. City
of Carlsbad, 58 F.3d 439, 441 (9th. Cir. 1995).
The moving party bears the burden of establishing the absence of a genuine issue of
material fact. Celotex Corp. v. Catrett, All U.S. 317, 323 (1986). “When judging the evidence
at the summary judgment stage, the district court is not to make credibility determinations or
weigh conflicting evidence, and is required to draw all inferences in a light most favorable to the
nonmoving party.” Mustek v. Burke, 913 F.2d 1390, 1394 (9th Cir. 1990). Where different
ultimate inferences may be drawn, summary judgment is inappropriate. Sankovich v. Life Ins.
Co. ofNorth America, 638 F.2d 136, 140 (9th Cir. 1981).
However, deference to the nonmoving party has limits; a party asserting that a fact cannot
be true or is genuinely disputed must support the assertion with admissible evidence. FRCP

5 See OAR-291-105-0085 (allowing for administrative review of final orders regarding Level I
and II rule violations by inspector general).
4 - OPINION AND ORDER

Case 3:17-cv-00501-YY

Document 88

Filed 12/04/18

Page 5 of 14

J

fyfvli \JulI
56(c). A nonmbving party cannot defeat summary judgment by relying on the alligations in the
complaint, unsupported conjecture, or conclusory statements. Hernandez v. Spacelabs Medical,
Inc., 343 F.3d 1107, 1112 (9th Cir. 2003). Thus, where “the record taken as a whole could not
lead a rational trier of fact to fmd for the non-moving party, there is no genuine issue for trial.”
Matsushita Elec. Indus. Co., Ltd., v. Zenith Radio Corp., 475 U.S. 574, 587 (1986).

n.

Civil Rights Act, 42 U.S.C. § 1983
The Civil Rights Act, 42 U.S.C. § 1983 “is not itself a source of substantive rights, but

merely provides a method for vindicating federal rights elsewhere conferred.” Graham v.
Connor, 490 U.S. 386, 393-94 (1989) (internal citation and quotation marks omitted). Section
1983 liability “arises only upon a showing of personal participation by the defendant,” acting
under color of state law, that deprived the plaintiff of a constitutional or federal statutory right.
Taylor v. List, 880 F.2d 1040, 1045 (9th Cir. 1989). “A person ‘subjects’ another to the
deprivation of a constitutional right, within the meaning of section 1983, if he does an
affirmative act, participates in another’s affirmative acts, or omits to perform an act which he is
legally required to do that causes the deprivation of which complaint is made.” Johnson v.
Duffy, 588 F.2d 740, 743 (9th Cir. 1978).
Federal courts hold a pro se litigant’s pleadings to “less stringent standards than formal
pleadings drafted by lawyers.” Eldridge v. Block, 832 F.2d 1132, 1137 (9th Cir. 1987); see
Erickson v. Pardus, 551 U.S. 89, 93-94 (2007) (per curiam) (a document filed pro se “is to be
liberally construed”; a plaintiff need only give the defendant fair notice of the claim and the
.grounds on which it rests) (citation omitted). “However, a liberal interpretation of a civil rights
compliant may not supply essential elements of the claim that were not initially pled.” Ivey v.
Board ofRegents, 613 F.2d 266, 268 (9th Cir. 1982). In addition, pro se pleadings may not

5 - OPINION AND ORDER

r

Case 3:17-cv-00501-YY

Document 88

Filed 12/04/18

^

Page 6 of 14

CwAl(

receive the benefit of every conceivable doubt, but only to reasonable factual inferences in the
plaintiffs favor. McKinney v. De Bord, 507 F.2d 501, 504 (9th Cir. 1974).
DISCUSSION
Defendants contend they are entitled to summary judgment because: (1) Monical’s dueprocess claims fail as a matter of law; (2) Nagy provided Monical with all process that was due;
(3) Monical has failed to state an equal protection claim; and (4) defendants are entitled to
qualified immunity from damages. Mot. Summ. J. 3.
L

Due Process Claims
A.

Towers

In his Amended Complaint, Monical alleges Towers violated his due process rights when
she: (1) wrote the misconduct report “11 days after [he] had arrived at CCIC” (Am. Compl. 6);
(2) charged him with Escape I “when in fact [he] had been charged with Escape II by the state”
(id. at 8); (3) got “the date of the escape ... wrong and then there was no mention that [he] had
spent the previous 22 months in segregation” (id. at 8-9); and (4) did not obtain a written
description of his escape from the Jackson County jail (id. at 9). Defendants correctly contend
that none of these actions constitutes a due process violation.
Prisoners are entitled to certain due process protections when subject to disciplinary
sanctions. Wolffv. McDonnell, 418 U.S. 539, 564-71 (1974). These protections, however,
adhere only when the disciplinary action implicates a protected liberty interest in some
“unexpected matter” or imposes an “atypical and significant hardship on the inmate in relation to
the ordinary incidents of prison life.” Serrano v. Francis, 345 F.3d 1071, 1078 (9th Cir. 2003)
(citing Sandin v. Connor, 515 U.S. 472, 484 (1995)). For an inmate’s segregation to constitute a
due process violation, the inmate must establish that the segregation “presents] the type of

6 - OPINION AND ORDER

Case 3:17-cv-00501-YY Document 88 Filed 12/04/18 Page 7 of 14

atypical, significant deprivation in which a State might conceivably create a liberty interest.”
Sandin, 515 U.S. at 486.
The court considers three factors in determining whether a condition is atypical and
significant:
(1) whether the challenged condition “mirrored those conditions imposed upon
inmates in administrative segregation and protective custody,” and thus
comported with the prison’s discretionary authority; (2) the duration of the
condition, and the degree of restraint imposed; and (3) whether the state’s action
will invariably affect the duration of the prisoner’s sentence.
Id. at 486-87. Assignment to administrative segregation without other factors present does not
implicate such a protected liberty interest. Serrano, 345 F.3d. at 1078; Resnickv. Hayes, 213
F.3d 443, 448 (9th Cir. 2000) (holding prisoner had no cognizable due-process claim because he
failed to establish his segregation presented the type of atypical, significant deprivation that
might conceivably create a liberty interest).
Here, Monical was moved to administrative segregation on September 28, 2015, pending
the results of the investigation into his Jackson County escape. Nagy Decl. f 4. He was housed
in administrative segregation status for 11 days, until Towers issued her misconduct report on
October 9, 2015. Id. After the report was issued, Dickinson approved holding Monical in
temporary segregation until Monical’s disciplinary hearing. Id. Monical was held in temporary
segregation for an additional five days pending the disciplinary hearing, which was held on
October 14, 2015. Nagy Deck, Att. 3, at 4.
Defendants correctly argue that holding an inmate in administrative or temporary
segregation for 16 days, without other factors present, does not amount to a “significant and
atypical hardship.” Mot. Summ. J. 8; see Serrano, 345 F.3d at 1078; Resnick, 213 F.3d at 448.
There is nothing in the record to suggest that Monical’s administrative and temporary

7 - OPINION AND ORDER

Case 3:17-cv-00501-YY

Document 88

Filed 12/04/18

Page 8 of 14

segregation did not mirror those conditions imposed upon inmates in other restricted housing
placements. Monical’s 11-day stay in administrative segregation comported with OAR 291-0460014,6 and his five-day stay in temporary segregation complied with OAR-291-105-0021(5)(a).7
The duration and degree of restraint was not remarkable, and Monical was given credit for the 16
days he spent in administrative and temporary segregation. Nagy Deck, Att. 3, at 1. There is
also no evidence that ODOC’s actions affected the duration of Monical’s sentence, which is
determined by a different set of administrative rules that come with their own procedural
safeguards. See OAR chapter 291, division 097. Because Monical has failed to establish that his
segregation “presented] the type of atypical, significant deprivation in which a State might
conceivably create a liberty interest,” his due process rights were not violated. Serrano, 345
F.3d at 1078.
Next, Monical claims Towers improperly classified his misconduct as Escape I, when the
state had charged him with only “Escape II.” Am. Compl. 8. As defendants assert, Monical
“confuses” the violation of ODOC administrative rules with the state’s criminal charges against
him. Mot. Summ. J. 8. Under OAR 291-105-0015(4)(i), an inmate commits Escape I if he
“departs without authorization from ... within the security perimeter of a facility.” Nagy Deck,
Att. 3, at 4. The state, on the other hand, charged Monical with escape in the second degree
under the criminal code, which provides that it is illegal to “escape[] from a correctional
facility.” ORS 162.155(l)(c). Escape in the second degree is a class C felony. ORS 162.155(2).

6 OAR 291-046-0014 provides that inmates may be held in involuntary segregation for up to 30
days without a hearing.
7 OAR 291-105-0021(5)(a) provides that a hearing shall be initiated within 10 calendar days if an
inmate is placed in temporary segregation status.
8 - OPINION AND ORDER

Case 3:17-cv-00501-YY Document 88 Filed 12/04/18 Page 9 of 14

These separate offenses have no relation to each other, and Towers accurately classified
Monical’s misconduct as Escape I under ODOC’s administrative rules.
Monical also alleges that Towers’ report contained an error regarding “the date of the
escape.” Am. Compl. 8-9. The report, however, correctly notes that Monical escaped on
November 19, 2012. Nagy Decl., Att. 3, at 4. In fact, Monical admits in his complaint that “on
November 19, 2012, [he] escaped from Jackson County Jail.” Am. Compl. 6.
Monical next argues that Towers’ purported failure to follow OAR 291-105-002l(2)(g)
resulted in a loss of credit for the 22 months he spent in segregation at Jackson County Jail after
his apprehension. Am. Compl. 8-9; Opp. 3-5. First, Monical contends that Towers failed to
comply with OAR 291-105-002 l(2)(g) when she did not attach “the required report” from
Jackson County Jail. Opp. 5.
OAR 291-105-0021 (2)(g) provides:
(g) When the alleged misconduct occurs while the inmate is in the temporary physical
custody of a jurisdiction other than the Department of Corrections, employees from that
jurisdiction may provide a written description of the misconduct to Department
employees.
(A) On review of such written information, the officer-in-charge at the facility receiving
the inmate back into the physical custody of the Department may determine that the
described action violates a rule(s) of prohibited inmate conduct and direct that a
misconduct report be submitted.
(B) The written description provided by the temporary custody jurisdiction shall
accompany the misconduct report. A misconduct report shall not be submitted absent a
written description of the allegation from the temporary physical custody jurisdiction.
(C) If it is determined that the other jurisdiction maintained the inmate in a similarly
restrictive status, the inmate shall be credited with the number of days he/she was held in
segregation type status by the other jurisdiction.
Subsection (g) is permissive, not mandatory. It states that employees from another
jurisdiction “may provide a written description of the misconduct to Department employees.”
OAR 291-105-0021 (2)(g) (emphasis added); see Associated Oregon Veterans v. Dep’t of
9 - OPINION AND ORDER

Case 3:17-cv-00501-YY

Document 88

Filed 12/04/18

Page 10 of 14

Veterans’ Affairs, 70 Or. App. 70, 74 (1984) (recognizing that “may” is generally a permissive
term, while “shall” is generally construed as a mandatory term). Although subsection (B)
requires that a written description “shall” be attached to the misconduct report, it is contingent
upon the fact that a written description had been “provided by the temporary custody
jurisdiction” in the first place. OAR 291-105-0021(2)(g)(B). Here, Jackson County Jail did not
provide a written description; therefore, Towers did not have a written description to attach to
Monica! s misconduct report.
Second, Monical argues that under OAR 291-105-002l(2)(g)(C), ODOC was required to
credit him for the 22 months he spent in segregation in Jackson County Jail. Defendants contend
that subsection (C) does not apply because Jackson County Jail never provided the predicate
“written description of the misconduct” described in subsection (g). This court, therefore, must
examine whether subsection (C) applies in a stand-alone fashion, as Monical contends, or
whether it applies only when a written description has been provided pursuant to subsection (g),
as defendants contend.
The rules relating to statutory interpretation apply to the interpretation of administrative
rules. Mossbergv. University of Oregon, 240 Or. App. 490, 496 (2011) (citing Tye v.
McFetridge, 199 Or. App. 529, 534 (2005)). Under Oregon law, the first step in statutory
construction is “an examination of text and context” of the statute. State v. Gaines, 346 Or. 160,
171 (2009) (en banc). Whether or not there is an ambiguity in the statute, the court may also
consider legislative history “where that legislative history appears useful to the court’s analysis."
Id. at 172. “[T]he extent of the court’s consideration of that history, and the evaluative weight
that the court gives it, is for the court to determine.” Id. Otherwise stated, the court is obligated
“to consider proffered legislative history only for whatever it is worth—and what it is worth is

10 - OPINION AND ORDER

Case 3:17-cv-00501-YY

Document 88

Filed 12/04/18

Page 11 of 14

for the court to decide.” Id. at 173. “If the legislature’s intent remains unclear after examining
text, context, and legislative history, the court may resort to general maxims of statutory
construction to aid in resolving the remaining uncertainty.” Id. at 172.
Importantly, the court “do[es] not look at one subsection of a statute in a vacuum[.]”
Lane County v. LCDC, 325 Or. 569, 578 (1997). “[R]ather, [the court] construe[s] each part
together with the other parts in an attempt to produce a harmonious whole.” Id.
The text and context of subsection (C) support defendants’ interpretation. Subsection (C)
is contained within subsection (g). This suggests that subsection (C) applies only when the
predicate act described in subsection (g) has occurred, i.e., a written description of the
misconduct has been provided by another jurisdiction. Moreover, both subsections (A) and (B)
are predicated upon whether such a written description was provided; thus, it follows that
subsection (C) is also dependent on a whether a written description was provided^)
Additionally, subsection (C) contains a qualifier. It states that “[ijfit is determined that
the other jurisdiction maintained the inmate in a similarly restrictive status,” the inmate shall be
credited with the days spent in segregation type status in the other jurisdiction. OAR 291-1050021(2)(g)(C) (emphasis added). Here, there was no such determination because Jackson
County Jail did not provide ODOC with a “written description” containing those details. The
number of days that Monical had been housed in Jackson County Jail segregation, and whether it

8

The history of OAR 291-105-0021(2)(g) provides some additional support for this
interpretation. Subsection (g) was enacted in 2005. OAR 291-105-0021(2)(g) (2005). At that
time, subsections (A), (B), and (C) did not exist, and the language in subsections (A) and (B) was
contained in subsection (g). Id. In 2008, the rule was pared down, and the language currently
contained in subsections (A) and (B) was eliminated, leaving only the language in the current
text of subsection (g). OAR 291-105-002 l(2)(g) (2008). In 2009, the rule was enacted in the
form it is seen today. OAR 291-105-0021(2)(g) (2009). Because subsections (A), (B), and (C)
were enacted at the same time, this is further indication that the rule was designed for all three
provisions to be dependent on the existence of a written description from the other jurisdiction.
11 - OPINION AND ORDER

Case 3:17-cv-00501-YY Document 88 Filed 12/04/18 Page 12 of 14

was “similarly restrictive” to ODOC segregation, is information that could have been contained
in a written description from Jackson County Jail; yet, Jackson County Jail did not provide one.
Nor were ODOC employees required to obtain this information from Jackson County Jail.
Subsection (C) does not impose an affirmative duty on ODOC employees to obtain this
information; rather, it merely states that “[i]f it is determined” an inmate was maintained in
similarly restrictive status in another jurisdiction, ODOC is required to give the inmate credit for
time served.

U;

In sum, subsection (C) cannot be examined in a vacuum. Lane County, 325 Or. at 578.
When the text and context of subsection (C) are examined, it is apparent that defendants were not
required to give Monical credit for any time he served in segregation in Jackson County Jail,
where the jail had not provided them with the details upon which to make such a determination.
B.

Nagy, McCorkhill, Taylor, and Gower

Monical’s claims against Nagy, Gower, defendant Correctional Captain Derek
McCorkhill (“McCorkhill”), and defendant then-Superintendent Jerry Taylor (“Taylor”) all
center on his failure to receive credit for time served under OAR 291-105-0021(2)(g)(C).
Monical alleges that defendant Nagy “failed to question the absence of the written report from
Jackson County” and “failed to question the lack of documentation in regards to [him] having
spent” time in segregation at Jackson County so that he could be “credited the time.” Am.
Compl. 12-13. He claims that Gower failed to review the materials he provided in support of his
claim that he was entitled to credit for time served under OAR 291-105-002 l(2)(g)(C). Id. at 1718. He contends that McCorkhill failed to ensure that a written report from Jackson County was
attached to Towers’ misconduct report and merely “rubber stamped” it. Id. at 6, 11-12. Finally,

12 - OPINION AND ORDER

<r /

Case 3:17-cv-00501-YY Document 88 Filed 12/04/18 Page 13 of 14

he claims that Taylor ignored his complaints that he was not receiving credit for time he had
served in Jackson County segregation. Id. at 16, 19.
These arguments lack merit: as discussed above, subsection (C) is inapplicable because
Jackson County Jail provided no written description pursuant to subsection (g).

n.

Equal Protection Claim
Monical contends that his equal protection rights were violated because defendants

selectively enforced OAR 291-105-0021(2)(g)(C) and thus “treated him differently then [sic]
similarly situated individuals without a legitimate state purpose for doing so.” Opp. 25 (citing
Village ofWillowbrookv. Olech, 528 U.S. 562, 564 (2000)).
The Equal Protection Clause is a guarantee that “[n]o state shall... deny to any person
within its jurisdiction the equal protection of the laws.” U.S. Const, amend. XIV, § 1. The
essence of that guarantee is that “all persons similarly situated should be treated alike.” City of
Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 439 (1985) (citing Flyer v. Doe, 457 U.S. 202,
216 (1982)). To prevail on an equal protection claim under Section 1983, a plaintiff must plead
and prove either “the defendants acted with an intent or purpose to discriminate against the
plaintiff based on membership in a protected class,” Lee v. City ofLos Angeles, 250 F.3d 668,
686 (9th Cir. 2001) (quoting Barren v. Harrington, 152 F.3d 1193,1194 (9th Cir. 1998)), or that
he or she “has been intentionally treated differently from others similarly situated and that there
is no rational relationship for the difference in treatment.” Village ofWillowbrook, 528 U.S. at
564.
Monical brings his claim under the latter theory. However, he has proffered no evidence
showing that defendants applied OAR 291-105-0021 (g) differently to him than other similarly
situation inmates. For this reason, his equal protection claim fails.

13 - OPINION AND ORDER

Case 3:17-cv-00501-YY

m.

Document 88

Filed 12/04/18

Page 14 of 14

Qualified Immunity
Finally, defendants contend they are entitled to qualified immunity from damages.

Qualified immunity generally protects discretionary acts by officials. Harlow v. Fitzgerald, 457
US 800, 818 (1982). If a plaintiff either fails to show the official’s conduct violated a
constitutional right or that the right was not clearly established, then the official is entitled to
qualified immunity. Lacey v. Maricopa Cnty., 649 F3d 1118, 1131 (9th Cir. 2011), on reh’gen
banc, 693 F.3d 896 (9th Cir. 2012).
“[WJhere the law is open to interpretation, qualified immunity protects [officials] who
reasonably interpret an unclear statute.” Mustafa v. City of Chicago, 442 F.3d 544, 549 (7th Cir.
2006). Thus, even if OAR 291-105-0021 (g)(C) is open to more than one interpretation, qualified
immunity protects defendants, as their interpretation of the .rule was reasonable for the reasons
explained above.-

'"f/L
C^CL^SION^

U/hzLrj
Ce>

Defendants’ motion for summary judgment (ECF #67) is GRANTED and this case is
dismissed with prejudice.
IT IS SO ORDERED.
DATED December 4, 2018.

/s/ Youlee Yim You
Youlee Yim You
United States Magistrate Judge

14 - OPINION AND ORDER

